No.__________
CERTIFICATE OF SERVICE
ANDREW W. SHALABY,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Respondents.
As required by Supreme Court Rules 29.3, 29.5,
29.5(a), and 29.5(b), I certify that the PETITION FOR
WRIT OF CERTIORARI, including the APPENDIX
attached thereto, and the CERTIFICATE OF
COMPLIANCE required by Supreme Court Rule
33.1(h), in the above entitled case, have been served
upon all the parties required to be served on November
22, 2019. The parties required to be served are:
Thomas Bruton
Clerk of the Court
U.S. District Court, Northern District of Illinois
219 S. Dearborn Street, Suite 2050
Chicago, IL 60604
Tel. 312-435-6860
email: Thomas_Bruton@ilnd.uscourts.gov
Andrew W. Shalaby - Petitioner
Supreme Court Bar No. 262436
7525 Leviston Avenue
El Cerrito, CA 94530

Tel. 510-551-8500
email: andrew@eastbaylaw.com
The parties were served in the following manner:
1.

United States Postal Service, by Priority Mail,
as stated on the accompanying Affidavit of
Service executed November 22, 2019 by Andrew
H. Cockle.

2.

Electronic mail, by Sonia Dunn-Ruiz, sent
from sonia@eastbaylaw.com, to
Thomas_Bruton@ilnd.uscourts.gov; and
panel@eastbaylaw.com, as stated on the
accompanying Affidavit of Service executed
November 22, 2019 by Sonia Dunn-Ruiz.

I further certify that I filed the PETITION FOR WRIT
OF CERTIORARI, including the APPENDIX attached
thereto, and the CERTIFICATE OF COMPLIANCE by
way of the Electronic Filing System (ECF) of the
Seventh Circuit Court of Appeal, in In re Andrew W.
Shalaby, case number 19-2369.
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on November 22, 2019
s/Andrew W. Shalaby

2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. _____
ANDREW W. SHALABY,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
Andrew W. Shalaby, pro per
Supreme Court Bar No. 262436
7525 Leviston Avenue
El Cerrito, CA 94530
Tel. 510-551-8500,
email:. andrew@eastbaylaw.com

Subscribed and sworn to before me this 22nd day ofNovember, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39011

SERVICE LIST

Thomas Bruton
Clerk of Court
US District Court, Northern District of Illinois
219 S. Dearborn Street, Suite 2050
Chicago, IL 60604
(312)435-6860
Thomas_Bruton@ilnd.uscourts.gov

No.__________
ANDREW W. SHALABY,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Respondents.
AFFIDAVIT OF SERVICE
(ELECTRONIC SERVICE,
SUPREME COURT RULE 29.3)
I, Sonia Dunn-Ruiz, of lawful age, being duly sworn,
upon my oath state that I did, on the 22nd of November,
2019, sent the PETITION FOR WRIT OF
CERTIORARI, including the APPENDIX attached
thereto, and the CERTIFICATE OF COMPLIANCE
required by Supreme Court Rule 33.1(h), in the above
entitled case, to all parties required to be served. All
parties required to be served are:
Thomas Bruton
Clerk of the Court
U.S. District Court, Northern District of Illinois
219 S. Dearborn Street, Suite 2050
Chicago, IL 60604
Tel. 312-435-6860
email: Thomas_Bruton@ilnd.uscourts.gov

Andrew W. Shalaby - Petitioner
Supreme Court Bar No. 262436
7525 Leviston Avenue
El Cerrito, CA 94530
Tel. 510-551-8500
email: andrew@eastbaylaw .com
I served these parties with the electronic version of
the documents, in PDF/A format, by electronic mail,
sent from my email at sonia@eastbaylaw .com to
Thomas_Bruton@ilnd. uscouts.gov; and
panel@eastbaylaw .com.

A notary public or other officer completing this
certificate verifies only the identity of the
individual who signed the document to which this
certificate is attached, and not the truthfulness,
accuracy, or validity of that document.

State of California
Count of Contra Costa
Subscribed and sworn to before me this 22nd day of
November, 2019, by Sonia Dunn-Ruiz, proved to me on
the basis of satisfactory evidence to be the person who
appeared before me.

